AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 20X
AGUDATH ISRAEL OF AMERICA, AGUDATH ISRAEL OF KEW GARDEN
HILLS, AGUDATH ISRAEL OF MADISON, RABBI YISROEL REISMAN,
STEVEN SAPHIRSTEIN,
Applicants,
v.
ANDREW M. CUOMO, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF
NEW YORK,
Respondent,
X
STATE OF NEW YORK
COUNTY OF NEW YORK )
I, Simone Cintron, being duly sworn according to law and being over
the age of 18, upon my oath depose and say that:
I am retained by Counsel of Record for the Applicant.
That on the 16th day of November, 2020, I served the within
Emergency Application for Writ of Injunction, with Appendix Volumes 1-2 in
the above-captioned matter upon:
Dustin J. Brockner, Esq.
New York State Office of the Attorney General
Division of Appeals & Opinions
The Capitol
Albany, NY 12224
518-776-2017
dustin.brockner@ag.ny.gov
nyoag.albanypdf@ag.ny.gov
by depositing one copy of same, addressed to each individual respectively,
and enclosed in a post-paid, properly addressed wrapper, in an official

depository maintained by the United States Postal Service, via Express Mail.
An electronic version was also served by email to each individual.
That on the same date as above, I filed by hand with this Court three
copies and 1 un-bound copy of the within Emergency for Writ of Injunction,
with Appendix Volumes 1-2. In addition, the brief has been submitted
through the Court's electronic filing system
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on this 16th day of November, 2020.

Simone Cintron

Sworn to and subscribed before me
this 16th day of November, 2020.

MARIA MAIS ONE T
Notary Public State of New York
No. 01MA6204360
Qualified in Queens County
Commission Expires Apr. 20, 2021

#299998

•

COUNSEL PRESS
(800) 274-3321 • (800) 359-6859
www.counselpress.com

